      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                              Washington, D.C. 20201



March 15, 2010

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Health Resources and Services Administration’s Bureau of Primary Health Care
               New Access Points Grants — Internal Control Review of the Process for
               Awarding American Recovery and Reinvestment Act Funds (A-03-09-00360)


The attached final report provides the results of our internal control review of Health Resources
and Services Administration’s (HRSA’s) Bureau of Primary Health Care’s (BPHC’s) process for
awarding American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
funded New Access Points (NAP) grants. This review was part of the Office of Inspector
General’s assessment of whether the Department of Health and Human Services is using
Recovery Act funds in accordance with legal and administrative requirements and is meeting the
accountability objectives defined by the Office of Management and Budget.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls, oversight mechanisms, and other approaches to meet the
accountability objectives of the Recovery Act.

Our objective was to assess the internal controls HRSA has in place over the NAP grant-award
process used by BPHC to award Recovery Act funds to determine whether the controls have
been suitably designed.

The internal controls for awarding Recovery Act funds to grantees, as described by management,
are suitably designed to provide reasonable assurance that the specified control objectives would
be achieved if the described internal controls were complied with satisfactorily and applied as
Page 2 – Mary Wakefield, Ph.D., R.N.


designed. However, we did not perform procedures to determine the operating effectiveness of
these internal controls. Accordingly, we express no opinion on the operating effectiveness of
any aspect of HRSA’s internal controls for awarding Recovery Act funds, individually or in the
aggregate.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-03-09-00360 in all correspondence.


Attachment
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL


     HEALTH RESOURCES AND
   SERVICES ADMINISTRATION’S
BUREAU OF PRIMARY HEALTH CARE
 NEW ACCESS POINTS GRANTS –
  INTERNAL CONTROL REVIEW
 OF THE PROCESS FOR AWARDING
    AMERICAN RECOVERY AND
   REINVESTMENT ACT FUNDS



                        Daniel R. Levinson
                         Inspector General

                           March 2010
                          A-03-09-00360
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for the Department of Health and
Human Services and its agencies are:

      Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

      Recovery Act funds are transparent to the public, and the public benefits of these funds
       are reported clearly, accurately, and in a timely manner.

      Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

      Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

      Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget memorandum (April 3, 2009) updated
initial implementing Recovery Act guidance (February 18, 2009) and requires that all Federal
agencies and departments receiving Recovery Act funds must maintain strong internal controls
and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Health Resources and Services Administration

The Health Resources and Services Administration (HRSA) is charged with increasing access to
basic health care for those who are medically underserved. HRSA implements its programs
through its six bureaus and 13 offices. The Office of Federal Assistance Management (OFAM)
provides assistance and oversight to the bureaus. The bureaus, in conjunction with OFAM,
establish goals and policies for the grant programs and activities applicable to the administration
of the programs. The Bureau of Primary Health Care (BPHC) assesses the health care needs of
underserved populations. BPHC awards grants to health centers to support primary health care
services for the underserved and move toward eliminating health disparities.



                                                 i
Recovery Act Funding for New Access Points Grants

The Recovery Act provides $2.5 billion to HRSA to help stimulate the economy through the
support of health care access for the underserved. Of the $2.5 billion, $2.0 billion was
appropriated to support, modernize, and renovate health centers. The remaining $500 million
was appropriated to address workforce shortages of health professionals.

Of the $2.0 billion that the Recovery Act appropriated to support, modernize and renovate health
centers, HRSA apportioned $156.8 million to BPHC for New Access Points (NAP) grants.
These competitive grants support new, full-time sites for the delivery of primary and preventive
care services to medically underserved populations. NAP grants also support health centers in
expanding their capacity to provide primary and preventive services through satellite sites while
creating employment opportunities in underserved communities.

OBJECTIVE

Our objective was to assess the internal controls HRSA has in place over the NAP grant-award
process used by BPHC to award Recovery Act funds to determine whether the controls have
been suitably designed.

RESULTS OF REVIEW

The internal controls over the grant-award process used to award BPHC’s Recovery Act funds,
as described by HRSA management, are suitably designed to provide reasonable assurance that
the specified control objectives would be achieved if the described controls were complied with
satisfactorily and applied as designed.

This report provides a sufficient understanding of HRSA’s grant process for awarding Recovery
Act funds to NAP grantees as it pertains to control objectives in the following internal control
areas: authorization and approval; accuracy, completeness, and validity; physical safeguards and
security; error handling; and segregation of duties.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                     Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              Recovery Act Requirements .................................................................................. 1
              Health Resources and Services Administration..................................................... 1
              Bureau of Primary Health Care.............................................................................. 2
              Recovery Act Funding for New Access Points Grants.......................................... 2
              Health Resources and Services Administration Grant-Award Process ................. 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................... 3
               Objective ................................................................................................................ 3
               Scope...................................................................................................................... 3
               Methodology .......................................................................................................... 3

RESULTS OF REVIEW ............................................................................................................. 4

          AUTHORIZATION AND APPROVAL .......................................................................... 5
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Eligibility Requirements Are in Accordance
                With Laws, Regulations, Recovery Act Guidance, and Agency Policy............. 5
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Information and Methods Used To Publicize the Program
                Are in Accordance With Laws, Regulations, Recovery Act Guidance,
                and Agency Policy .............................................................................................. 5
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grant Application Processing Procedures Are
                Established and in Accordance With Laws, Regulations, Recovery Act
                Guidance, and Agency Policy............................................................................. 6
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Grantee Procedures for Control, Use, and Reporting
                of Grant-Funded Operations Are in Accordance with Laws, Regulations,
                Recovery Act Guidance, and Agency Policy...................................................... 6
              Internal Control Objective 5: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are Noted and in Place............................ 7

          ACCURACY, COMPLETENESS, AND VALIDITY ..................................................... 7
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achieved in an Economical and
                Efficient Manner ................................................................................................ 7
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Procedures Used To Process and Approve Grant
                Applications and Related Transactions Are Efficient ........................................ 7


                                                                    iii
          Internal Control Objective 3: Internal Controls Provide Reasonable
            Assurance That the Agency Has Mechanisms in Place To Timely Award
            Grant and Contract Funds ................................................................................... 8
          Internal Control Objective 4: Internal Controls Provide Reasonable
            Assurance That Only Those Grant Requests That Meet the Eligibility
            Requirements Are Approved .............................................................................. 8
          Internal Control Objective 5: Internal Controls Provide Reasonable
            Assurance That Grantee Records Are Periodically Substantiated and
            Evaluated............................................................................................................. 8

PHYSICAL SAFEGUARDS AND SECURITY .............................................................. 9
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to Grant and Accounting Records, Critical Forms,
       Processing Areas, and Processing Procedures Are Permitted Only in
       Accordance With Policy ..................................................................................... 9
     Internal Control Objective 2: Internal Controls Provide Reasonable
       Assurance That Valuable Assets and Information Are Safeguarded From
       Unauthorized Access or Use............................................................................... 9

ERROR HANDLING ...................................................................................................... 10
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the Health Resources and Services Administration
      Accurately and Promptly Classifies, Summarizes, and Reports Adjustments
      to Grant Application Information and Records ................................................ 10

SEGREGATION OF DUTIES ........................................................................................ 10
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities for an Individual To Both Cause and
       Conceal Errors Are Reduced ............................................................................ 10




                                                          iv
                                               INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health and Human Services (HHS) Recovery Act Web site, 1
every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability.

The five crucial objectives for HHS and its agencies are:

          Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
           manner.

          Recovery Act funds are transparent to the public, and the public benefits of these funds
           are reported clearly, accurately, and in a timely manner.

          Recovery Act funds are used for authorized purposes and every step is taken to prevent
           instances of fraud, error, and abuse.

          Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

          Projects funded under the Recovery Act ensure program goals are achieved, including
           specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and requires that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Health Resources and Services Administration

The Health Resources and Services Administration (HRSA) is charged with increasing access to
basic health care for those who are medically underserved. HRSA establishes policies over its

1
    Available online at http://www.hhs.gov/recovery/reports/index.html, accessed December 29, 2009.


                                                          1
grant-award process and provides standard terms and conditions for each type of grant program.
HRSA implements its programs through its six bureaus and 13 offices, which provide leadership
and financial support to health care providers through a wide range of programs and initiatives
designed to safeguard the health and well-being of the Nation’s most vulnerable populations.

HRSA programs are legislatively authorized by Congress. The legislation defines the purpose
and provides appropriations for these programs. The Office of Federal Assistance Management
(OFAM) provides assistance and oversight to the bureaus. The bureaus, in conjunction with
OFAM, establish goals and policies for the grant programs and activities applicable to the
administration of the programs.

Bureau of Primary Health Care

The Bureau of Primary Health Care (BPHC) awards both discretionary and formula grants and
has the authority to determine the recipients of the grants and the amounts awarded. BPHC
assesses the health care needs of underserved populations and awards grants to health centers to
support primary health care services and move toward eliminating health disparities for the
underserved.

Recovery Act Funding for New Access Points Grants

The Recovery Act provides $2.5 billion to HRSA to help stimulate the economy through the
support of health care access for the underserved. Of the $2.5 billion, $2.0 billion was
appropriated to support, modernize, and renovate health centers. The remaining $500 million
was appropriated to address workforce shortages of health professionals.

Of the $2.0 billion that the Recovery Act appropriated to support, modernize, and renovate
health centers, HRSA apportioned $156.8 million to BPHC for New Access Points (NAP) grants.
These competitive grants support new, full-time sites for the delivery of primary and preventive
care services to medically underserved populations. NAP grants also support health centers in
expanding their capacity to provide primary and preventive services through satellite sites while
creating employment opportunities in underserved communities.

This review, one in a series of reviews of HRSA’s internal controls over the granting of
Recovery Act funds, addresses BPHC’s award granting processes for NAP grants. NAP grants
funded by the Recovery Act and administered by BPHC support 126 new health care access
points for the delivery of primary health care services for the medically underserved.

Health Resources and Services Administration Grant-Award Process

For the most part, HRSA grant applications must be submitted online through Grants.gov, which
is the Federal Government’s on-line portal to find and apply for Federal grant funding. BPHC
uses HRSA’s Electronic Handbooks, a project management system, to set up funding
opportunities and accept grantee applications through Grants.gov. The Electronic Handbooks
also enables electronic signature.



                                                2
OFAM provides guidance relating to the laws, regulations, and policies pertinent to the
administration of HRSA grants. OFAM conducts operational planning, review, awarding, and
management of HRSA’s portfolio of grants. Within OFAM, there are four divisions: Division
of Financial Integrity, Division of Grants Policy, Division of Grants Management Operations,
and Division of Independent Review. Each division has standard operating procedures.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls HRSA has in place over the NAP grant-award
process used by BPHC to award Recovery Act funds to determine whether the controls have
been suitably designed.

Scope

We assessed HRSA’s internal controls over the grant-award process used by BPHC to award
Recovery Act funds to health centers to support new health care access points. Our assessment
was limited to determining whether existing internal controls adequately achieved the internal
control objectives for: (1) authorization and approval; (2) accuracy, completeness, and validity;
(3) physical safeguards and security; (4) error handling; and (5) segregation of duties.

We did not perform procedures to determine the operating effectiveness of these controls.
Accordingly, we express no opinion on the operating effectiveness of any aspect of HRSA’s
internal controls over the grant-award process that BPHC used to award Recovery Act funds,
individually or in the aggregate.

We performed fieldwork at HRSA Headquarters offices in Rockville, Maryland, from May
through July 2009.

Methodology

The internal control environment represents the collective effect of a number of elements in
establishing, enhancing, or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of BPHC’s control environment, we:

       reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
        by OMB, that BPHC must follow for awarding grants;

       reviewed HRSA’s organizational structure, including segregation of functional
        responsibilities, policy statements, operating manuals, and personnel policies;

       reviewed the HRSA Federal Managers’ Financial Integrity Act report;

       reviewed the HRSA Grants Management Cycle Memorandum for FY ended September
        30, 2008;

                                                3
      reviewed BPHC’s spending and implementation plans for NAP grants;

      interviewed HRSA and BPHC management, as well as operations, administrative, and
       other personnel responsible for developing, assuring adherence to, and applying internal
       controls; and

      reviewed the grant-award process for two grants funded with Recovery Act funds.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF REVIEW

The internal controls over the grant-award process used to award BPHC’s Recovery Act funds,
as described by HRSA management, are suitably designed to provide reasonable assurance that
the specified internal control objectives would be achieved if the described internal controls were
complied with satisfactorily and applied as designed.

This report provides a sufficient understanding of HRSA’s grant process for awarding Recovery
Act funds to NAP grantees as it pertains to control objectives in the following internal control
areas:

      authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

      accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

      physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

      error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

      segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.




                                                4
AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Eligibility Requirements Are in Accordance With Laws, Regulations, Recovery Act
Guidance, and Agency Policy

      BPHC’s policy is to look for competitive NAP grant proposals to provide health care
       services to the underserved in their communities. Each type of HRSA grant program has
       its own set of eligibility requirements. Applicants for NAP awards can find eligibility
       information in section III of each funding opportunity announcement.

      HRSA’s policy is to prepare guidance to advise applicants about requirements for NAP
       grants. HRSA’s policy further states that guidance is sent to OFAM and the Office of
       General Counsel for review and comments.

      The HRSA “Objective Review Manual” states that HRSA will evaluate grant
       applications by a fair and impartial process. For NAP awards, applications are received
       in Grants.gov, downloaded into the Electronic Handbooks, and provided to OFAM’s
       Division of Independent Review, which arranges for an objective external review by
       expert reviewers, based on specific published grant criteria.

      HRSA’s policy is to include the “HHS Grants Policy Statement” in all Notice of Awards
       as a term and condition of the award. The “HHS Grants Policy Statement” says that
       grant awards are for the reimbursement of actual and allowable costs incurred, and are
       subject to Federal cost principles. The cost principles are set forth in OMB Circulars A-
       87 and A-122 and incorporated by reference in 45 CFR §§ 74.25 and 92.30. The cost
       principles address four tests to determine the allowability of costs: reasonableness,
       allocability, consistency, and conformance. The “HHS Grants Policy Statement” also
       includes administrative and other remedies the Federal Government may use if a grantee
       does not comply with requirements.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Information and Methods Used To Publicize the Program Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

      OMB implementation guidance for the Recovery Act requires Federal agencies to
       provide information on the funding notifications made for all award types on
       Recovery.gov with a link to the agency’s Web site. The funding notifications stem from
       public announcements on the amount of funds available to entities outside of the Federal
       Government. The notifications include funds available immediately through formula or
       block grants, through the solicitation of applications or proposals for award in the future,
       or through any other public notification. Grants, contracts, loans, loan guarantees,
       cooperative agreements, and other forms of assistance are all subject to this reporting
       requirement.




                                                 5
      BPHC posts the grant eligibility requirements, program objectives, and financial
       management system requirements on its own Web site and Grants.gov. Each Web site is
       linked to Recovery.gov. Funding opportunity announcements result in the submission of
       grant applications through Grants.gov. Funding opportunity announcements are requests
       for applications and are issued to invite grant applications in BPHC’s priority areas.

      BPHC’s Web site contains a wide variety of resource materials that educate grantees
       about applicable regulations and policies governing the administration of grants. BPHC
       staff also provide policy interpretation and consultation to the grantee community.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grant Application Processing Procedures Are Established and in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

      HRSA’s policy is to evaluate grant applications in a fair and impartial manner. The
       “HHS Awarding Agency Grants Administration Manual” (2.04.104C-1) requires
       discretionary competitive grant applications to undergo an independent, objective review
       to be considered for funding.

      As required, applications for competitive grants are processed through an objective
       review and assigned a numerical ranking. The Division of Independent Review uses an
       objective review process in which grant applications are reviewed by a committee of
       experts qualified by training and experience in fields or disciplines related to the
       application being reviewed. Potential reviewers are screened for prejudices, biases,
       predispositions, or conflicts of interest that could taint the review process. The reviewers
       evaluate each application based on published application guidance and assess the
       feasibility of each project. The results of the review are recorded in the Electronic
       Handbooks.

      Before awarding a grant, BPHC and OFAM ensure that administrative requirements have
       been addressed, including whether competitive grants were funded in rank order. For all
       new and competitive continuation awards, Congress is alerted at least 72 hours before the
       award is issued. The Congressional Liaison Office is automatically notified via the
       Grants Administration Tracking and Evaluation System. The Grants Management
       Officer, an OFAM employee, approves the Notice of Grant Award, which is sent to the
       grantee.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Grantee Procedures for Control, Use, and Reporting of Grant-Funded Operations Are in
Accordance with Laws, Regulations, Recovery Act Guidance, and Agency Policy

      HRSA requires grantees to meet the standards and requirements for financial
       management systems set forth or referenced in 45 CFR § 74.21 or 92.20, as applicable.
       Requirements for grantees’ financial and administrative systems are included in the
       “HHS Grants Policy Statement.”


                                                6
      HRSA may impose corrective actions and/or include special conditions on awards or
       suspend, terminate, or withhold support. OFAM determines whether the entity has the
       financial management abilities and practices to use Federal resources in accordance with
       Federal rules and regulations.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are Noted and in Place

      The Authorized Organization Representative certifies that the applicant organization will
       be accountable both for the appropriate use of funds awarded and for the performance of
       the grant-supported project or other activities resulting from the application. The
       Authorized Organization Representative is also responsible to BPHC for ensuring that the
       organization complies with the terms and conditions of individual awards and
       organizationwide requirements, such as those concerning financial management and
       property management.

      A grantee acknowledges and accepts a NAP award and its associated terms and
       conditions by drawing down or requesting funds made available by the Notice of Grant
       Award. Once the award is accepted by the grantee, the terms and conditions of the
       Notice of Grant Award are binding.

ACCURACY, COMPLETENESS, AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achieved in an Economical and Efficient Manner

      HRSA requires that OFAM review applications for appropriate eligibility and create a
       ranked listing of them based on local need, the applicant’s response and other evaluative
       measures, the project’s potential impact, resources/capacity, and budget/support
       requested.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Procedures Used To Process and Approve Grant Applications and Related Transactions
Are Efficient

      BPHC requires that applications be submitted electronically through Grants.gov. The
       Electronic Handbooks contains the official grant files in electronic format. A HRSA
       contractor validates, edits, and batches electronic applications and distributes them to
       BPHC and OFAM.

      HRSA requires that submitted applications undergo checks at Grants.gov . Grants.gov
       checks to ensure that no viruses are attached to the application and the DUNS number is




                                                7
         correct. 2 At BPHC, the application is checked against an application validation checklist.
         If there are no errors, then the application moves further into the award process.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That the
Agency Has Mechanisms in Place To Timely Award Grant and Contract Funds

        BPHC intends to obligate and disburse its Recovery Act funds in FY 2009 and 2010.
         BPHC officials said BPHC will allocate additional staff as needed to address the
         increased number of grant applications. Communication is expedited with use of the
         Electronic Handbooks.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That Only
Those Grant Requests That Meet the Eligibility Requirements Are Approved

        HRSA policy requires that OFAM review the General Services Administration Listing of
         Parties Excluded From Federal Procurement and Non-Procurement Programs before
         issuing a grant.

        BPHC policy requires that it conduct an eligibility and completeness review of
         applications. Eligible applications are then forwarded to OFAM for objective review.
         OFAM certifies that all applicable requirements for an independent, competitive review
         have been carried out before funding a grant application.

        Before awarding the grant, HRSA requires OFAM to perform an assessment that includes
         a budget review and a review of other information such as information in the Debarment
         and Suspension List and the Payment Management System. The Division of Financial
         Integrity performs a more extensive financial review of the potential grantees.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grantee Records Are Periodically Substantiated and Evaluated

        Pursuant to OMB Circular A-133 and 45 CFR § 74.26, grantees that expend more than
         $500,000 in a fiscal year are required to obtain audits of their organizations’ operations
         annually from private accounting firms. Additionally, HRSA provides technical
         assistance and educational outreach to educate staff and to enhance administrative
         oversight of program activities.

        OFAM and BPHC use progress reports, financial statement reports and performance
         review reports, correspondence from the grantee, audit reports, site visits, and other

2
 Date Universal Numbering System (DUNS) is a unique nine-digit number assigned by Dun and Bradstreet
Information Services. It is the universal standard for identifying and keeping track of more than 92 million
businesses worldwide. Grants.gov requires a DUNS number for registration. For applicants, the DUNS number in
the application must match the DUNS number in the Electronic Handbooks. The Electronic Handbooks allows
applicants to access the status of their applications; grantees can access the status of their awards, submit reports,
and communicate with BPHC electronically.


                                                           8
       available information to monitor costs and program results, identify potential problems,
       and identify areas where technical assistance or enforcement action may be necessary.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Grant and Accounting Records, Critical Forms, Processing Areas, and
Processing Procedures Are Permitted Only in Accordance with Policy

      HRSA maintains an agencywide security program to safeguard and secure access to
       records. In its FY 2008 “Improper Payments Information Act Risk Assessment” (risk
       assessment) HRSA formalized system security requirements for all its financial and
       nonfinancial systems. HRSA’s access controls include formal authorization, password
       requirements, and clearance levels. The risk assessment noted that HRSA also employs
       firewalls, intrusion detection systems, and anti-virus software at multiple tiers for
       information technology security. Finally, the risk assessment noted that HRSA has
       developed an Information Systems Security Plan to evaluate and mitigate potential
       threats.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Valuable Assets and Information Are Safeguarded From Unauthorized Access or Use

      HRSA officials told us HRSA has actively addressed security issues by providing
       frequent training to staff. HRSA has developed specialized security training for
       personnel with significant security responsibilities to comply with OMB requirements.
       HRSA also recently updated its security awareness course, which is an annual
       requirement for all personnel who use information systems.

      HRSA has a number of internal controls in place to ensure the safeguarding and security
       of data. HRSA maintains backup tapes offsite to provide recovery of data. It administers
       a Critical Infrastructure Protection program that emphasizes perimeter protection,
       incident response, and risk assessment. HRSA completes annual self-assessments,
       privacy impact assessments, and security reviews for all Federal Information Security
       Management Act (FISMA) critical systems. HRSA requires certification and
       accreditation for 100 percent of FISMA systems. Certification and accreditation ensures
       that safeguards are implemented effectively and commensurate with risks. HRSA also
       implemented HHS’s “Security and Privacy Online Reporting Tool” for tracking FISMA
       information.




                                               9
ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
Health Resources and Services Administration Accurately and Promptly Classifies,
Summarizes, and Reports Adjustments to Grant Application Information and Records

      Grants.gov provides a warning to alert the applicant to a less-than-ideal condition during
       the application process. Correcting the error allows the application to proceed.

      HRSA’s policy does not allow applicants who have submitted their applications to
       correct errors and resubmit the corrected information through Grants.gov. To eliminate
       processing errors and ensure that all applicants are treated equally, HRSA accepts an
       applicant’s first electronic submission as the final and only acceptable submission of any
       competing application submitted to Grants.gov.

SEGREGATION OF DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities for an Individual To Both Cause and Conceal Errors Are Reduced

      BPHC’s Project Officers establish or participate in the establishment of goals for new
       programs and are responsible for developing program guidance.

      BPHC’s Associate Administrator’s Office, the Office of General Counsel, and OFAM
       review, provide comments, and signoff on the BPHC guidance.

      OFAM’s Division of Grants Management Operations is responsible for coordinating all
       aspects of the grant-award process. Grants Management Officers are independent of
       BPHC.

      OFAM’s Division of Independent Review is responsible for planning, directing, and
       managing the objective review of new competing applications.

      OFAM’s Division of Financial Integrity is responsible for performing the financial
       assessment and providing recommendations to OFAM’s Division of Grants Management
       Operations and the bureau to which the award applies.




                                               10
